GR-80-98-039
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Los Alamos County Police Department
Los Alamos, New Mexico
 
GR-80-98-039
 
September 22, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Los Alamos County Police Department, Los Alamos, New
Mexico. The Los Alamos County Police Department received a grant of $75,000 to hire or
rehire one sworn police officer under the Funding Accelerated for Smaller Towns (FAST)
program, and $290,323 to redeploy 
14.4 full-time equivalents (FTEs) under the Making Officer Redeployment Effective
(MORE) program. The purpose of the additional officer is to enhance community policing
efforts.
Budgeted funds for police services and the number of officers budgeted remained at or
above the level of FY 1994, the year before the FAST grant was initiated. Funds provided
under the grant were used to enhance the Los Alamos County Police Department's community
policing efforts. The number of officers performing community policing activities
increased by the number of officers funded under the grant.
However, we found the following weaknesses with regard to meeting the grant conditions:


- Overtime costs totaling $5,750 were improperly included in the total program costs as
    reported in the most recent Financial Status Reports for the FAST grant. 
- The number of FTEs required under the MORE grant had not been redeployed. 
- Several COPS monitoring reports and OJP Financial Status Reports were either not
    submitted timely or never submitted.
- Nine of the 14 required Financial Status Reports for the FAST grant were submitted,
    six of which were late. In addition, three of the required Financial Status Reports for
    the MORE grant were not submitted, and six reports were not timely submitted.
- Total program outlays were overstated by $5,177 for the FAST grant and understated by
    $19,570 for the MORE grant. In addition, the Federal share reported for both the FAST and
    MORE grant were inconsistent with requests for reimbursement. 


#####